<html>
<title> - THE FAIR ELECTIONS NOW ACT: A COMPREHENSIVE RESPONSE TO CITIZENS UNITED</title>
<body><pre>[Senate Hearing 112-935]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 112-935
 
                 	THE FAIR ELECTIONS NOW ACT: A 
                 COMPREHENSIVE RESPONSE TO CITIZENS UNITED

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON THE CONSTITUTION,
                     CIVIL RIGHTS, AND HUMAN RIGHTS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 12, 2011

                               __________

                          Serial No. J-112-15

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                        U.S. GOVERNMENT PUBLISHING OFFICE
94-623 PDF                  WASHINGTON : 2015                        
        
       
_______________________________________________________________________________________         
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c9aeb9a689aabcbabda1aca5b9e7aaa6a4e7">[email&#160;protected]</a>  
         
         

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHUCK SCHUMER, New York              JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                                 ------                                

    SUBCOMMITTEE ON THE CONSTITUTION, CIVIL RIGHTS AND HUMAN RIGHTS

                    DICK DURBIN, Illinois, Chairman
PATRICK J. LEAHY, Vermont            LINDSEY O. GRAHAM, South Carolina
SHELDON WHITEHOUSE, Rhode Island     JON KYL, Arizona
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TOM COBURN, Oklahoma
       Joseph Zogby, Democratic Chief Counsel and Staff Director
                  Walt Kuhn, Republican Chief Counsel
                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Durbin, Hon. Dick, a U.S. Senator from the State of Illinois.....     1
    prepared statement...........................................    30
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    33

                               WITNESSES

Witness List.....................................................    29
Simpson, Hon. Alan, former U.S. Senator from the State of 
  Wyoming, Cody, Wyoming.........................................     4
    prepared statement...........................................    35
Mitchell, Cleta, Partner, Foley & Lardner, Washington, DC........     7
    prepared statement...........................................    38
Youn, Monica, Senior Counsel, Democracy Program, Brennan Center 
  for Justice at New York University School of Law, New York, New 
  York...........................................................     9
    prepared statement...........................................    50

                               QUESTIONS

Questions submitted by Senator Graham for Cleta Mitchell.........    73

                                ANSWERS

Responses of Cleta Mitchell to questions submitted by Senator 
  Graham.........................................................    74

                       SUBMISSIONS FOR THE RECORD

Americans for Campaign Reform, Concord, New Hampshire: Overview, 
  Civic Leaders for Fair Elections...............................    75
Americans for Campaign Reform, Concord, New Hampshire: Overview, 
  Government Leaders for Fair Elections..........................    76
Americans for Campaign Reform, Concord, New Hampshire: Overview, 
  Building the Movement for Reform...............................    77
American Constitution Society, Monica Youn, Washington, DC, June 
  2010, Brief....................................................    78
Who's Buying Campaign Finance Reform? Notes/Bibliography.........    99
Additional Document for the Record, Senator Lindsey Graham, April 
  12, 2011, Web Site link........................................   107
Alliance for Justice, Nan Aron, President, Washington, DC, April 
  11, 2011, letter...............................................   108
AFSCME, Charles M. Loveless, Director of Legislation, Washington, 
  DC, April 11, 2011, letter.....................................   109
American Sustainable Business Council, David Levine, Co-Founder, 
  Executive Director, Washington, DC, April 7, 2011, letter......   110
Lake Research Partners, Celinda Lake, President, Washington, DC, 
  April 18, 2011, letter.........................................   111
Boston Globe, ``The High Cost of Private Campaign Funding,'' by 
  Daniel Weeks, November 19, 2009, article.......................   113
Center for Competitive Politics, Sean Parnell, President, 
  Alexandria, Virginia, statement................................   114
Center for Lobbying in the Public Interest (CLPI), Lawrence S. 
  Ottinger, President, Washington, DC, April 11, 2011, letter....   120
CREW, Melanie Sloan, Executive Director, Washington, DC, 
  September 21, 2010, letter.....................................   121
Democracy Matters, Joan Mandle, Executive Director, Hamilton, New 
  York, April 7, 2011, letter....................................   123
Democracy for America, Jim Dean, Chair, South Burlington, 
  Vermont, letter................................................   124
Demos, Miles Rapoport, President, Washington, DC, April 11, 2011, 
  letter.........................................................   125
Detroit News, May 8, 2010, article...............................   127
U.S. News, Noteworthy Facts and Figures Related to Money and 
  Politics, Fred Wertheimer, April 11, 2011, fact sheet..........   128
Common Cause, Bob Edgar, President, and Sarah Dufendach, Vice 
  President for Legislative Affairs, Washington, DC, April 11, 
  2011, letter...................................................   129
Members of Congress and Time Spent Fundraising, report...........   131
Main Street Alliance, Sam Blair, Network Director, Seattle, 
  Washington, April 8, 2011, letter..............................   133
NAACP, Hilary O. Shelton, Director, Senior Vice President for 
  Advocacy and Policy, Washington, DC, April 7, 2011, letter.....   134
Public Advocate for the City of New York, December 2010, report..   135
Progress Now, Aniello Alioto, National Political Director, St. 
  Paul, Minnesota, April 11, 2011, letter........................   151
Lioz, Adam, Program Director and Counsel, Progressive Future, 
  Washington, DC, letter.........................................   152
Progressives United, Russell D. Feingold, former U.S. Senator, 
  Founder, Middleton, Wisconsin, April 11, 2011, letter..........   153
Public Campaign, Nick Nyhart, President and CEO, Washington, DC, 
  April 12, 2011, letter.........................................   154
Public Citizen, David Arkush, Director, Public Citizen's Congress 
  Watch Division and Craig Holman, Government Affairs Lobbyist, 
  Washington, DC, April 6, 2011, letter..........................   156
Public Citizen, David Arkush, Director, Public Citizen's Congress 
  Watch Division and Craig Holman, Government Affairs Lobbyist, 
  Washington, DC, April 12, 2011, statement......................   157
Rock the Vote, Thomas Bates, Vice President, Civic Engagement, 
  Washington, DC, April 8, 2011, letter..........................   161
Roll Call, June 23, 2010, article................................   162
Democracy21, Fred Wertheimer, President, Washington, DC, April 
  2011, fact sheet...............................................   163
Sierra Club, Michael Brune, Executive Director, Washington, DC, 
  April 11, 2011, letter.........................................   168
U.S. News and World Report, ``Taxpayer Checkoff Protects Against 
  Corruption,'' April 11, 2011, article..........................   169
USA Today, ``Biggest Election Winner: Big Money,'' November 5, 
  2010, article..................................................   171
US Action, Jeffrey Blum, Executive Director, Washington, DC, 
  April 5, 2011, letter..........................................   172
The Washington Post, ``A Republican Tradition Goes Awry,'' 
  February 5, 2010, article......................................   173
The Washington Post, ``WHITMAN: Too Much Money in Politics,'' 
  October 5, 2010, article.......................................   174


THE FAIR ELECTIONS NOW ACT: A COMPREHENSIVE RESPONSE TO CITIZENS UNITED

                              ----------                              


                        TUESDAY, APRIL 12, 2011

                                       U.S. Senate,
                          Subcommittee on the Constitution,
                            Civil Rights, and Human Rights,
                                Committee on the Judiciary,
                                                     Washington, DC
    The Subcommittee met, pursuant to notice, at 10:06 a.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Richard J. 
Durbin, Chairman of the Subcommittee, presiding.
    Present: Senators Durbin, Whitehouse, Franken, and 
Blumenthal.

  OPENING STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR 
                   FROM THE STATE OF ILLINOIS

    Chairman Durbin. This hearing of the Subcommittee on the 
Constitution, Civil Rights, and Human Rights will come to 
order, and we will examine today the impact of the Supreme 
Court's 2010 decision in Citizens United v. FEC, a landmark 
ruling that by all indications has dramatically changed the 
nature of financing in Congressional campaigns.
    We will also discuss the Fair Elections Now Act, a 
comprehensive proposal which I have introduced to fundamentally 
reform the way that these Congressional campaigns are financed.
    Senator Graham, unfortunately, is unable to be with us 
today. He had to be back home in his State, but I want to thank 
him in advance for his tremendous bipartisan cooperation on 
these hearings.
    I am going to make a few remarks, and then if a Ranking 
Member is here from the Republican side, I will certainly give 
them an opportunity to speak to this issue before the hearing 
commences.
    On November 19, 1863, Abraham Lincoln stood before 10,000 
Americans to formally dedicate the Soldiers National Cemetery. 
He was not the main speaker on that day. That honor belonged to 
Edward Everett, the former Secretary of State, who spoke for 
more than two hours. When President Lincoln was given a chance 
to speak, he spoke for about two minutes. He delivered the 
Gettysburg Address, which has become one of the most famous 
speeches in American history.
    He paid respect to the soldiers who died at Gettysburg. He 
challenged their survivors to uphold the principle for which 
they had died: a ``government of the people, by the people, and 
for the people.''
    My guess is that President Lincoln would be certainly 
surprised, if not disappointed, to look at the expanded role of 
special interests in Congress today.
    Senators and Congressmen are forced to spend so much time 
chasing campaign donations that Congress has become more 
responsive to lobbyists and corporate donors than it is to 
everyday Americans. It is personally troubling to me, if not 
embarrassing, how much time we spend behind closed doors 
talking about raising money for campaigns.
    Some argue that our government of, by, and for the people 
has morphed into one that is bought and paid for by special 
interests.
    Our fellow Americans see the corrosive impact that special 
interest money has on our political system, and they do not 
like it one bit. Recent surveys confirm that Americans are 
losing faith in Congress: Eight out of 10 Americans surveyed in 
February believe that Members of Congress are ``controlled'' by 
the people who fund their campaigns; seven out of 10 Americans 
believe that ``most Members of Congress [are] willing to sell 
their vote for either cash or a campaign contribution.''
    Let me be clear: The overwhelming majority of people 
serving in American politics in both political parties are 
good, honest, hard-working people who are guided by the best of 
intentions.
    The problem is that even the best of us are caught in a 
terrible, corrupting system. This system creates the perception 
among average Americans that politicians are beholden to big 
money interests.
    The situation has been made worse by the Supreme Court's 
decision in Citizens United. In that decision, which ignored 
decades of Court precedent, a divided Supreme Court held that 
corporations and unions can spend as much money as they want to 
influence Congressional elections.
    That is exactly what happened after the Citizens United 
decision in the election of 2010.
    Last year, a record $4 billion was spent on federal 
elections by outside organizations, political parties, and 
Congressional campaigns.
    Outside groups spent 500 percent more on Congressional 
campaigns than they did just four years earlier.
    The amount of money these lobbyists and corporations are 
willing to spend is going to continue to increase dramatically, 
and more and more of it will be done in secret. We will not 
know the sources of the money that is being spent in these 
campaigns.
    Big money donors, corporations, and lobbyists are spending 
tens of millions of dollars to elect candidates. It is not just 
simply because of their love for our system of government. So 
no one should be surprised, as you go out here in the corridors 
of this building, to see who is walking the halls, hoping to 
cash in on their investments.
    This flood of campaign spending from big corporations and 
special interest lobbyists is drowning out the voice of 
everyday Americans and crippling Congress' ability to solve 
problems.
    The Supreme Court may strike another blow in favor of 
special interests this term when it takes up the Arizona 
campaign finance law, enacted by the people of Arizona. 
Clearly, it is time for Congress to step in.
    Transparency is critical. We need to know which special 
interests are donating to candidates and how much they are 
giving. But our system is in desperate need of even more 
comprehensive reform. That is why I introduced the Fair 
Elections Now Act, with 12 of my Senate colleagues. Our bill 
will allow candidates to get out of the fundraising business 
and focus on being Senators and Congressmen.
    The voluntary system created by the Fair Elections Now Act 
will allow candidates to run competitive campaigns without 
raising a dime, not a penny, from special interest lobbyists or 
corporations.
    Qualified candidates will receive grants, matching funds, 
and television vouchers to help them run their campaigns.
    In return, the candidates voluntarily agree to only accept 
campaign donations of $100 or less from citizens in their own 
State.
    Fair Elections candidates will be able to stand up and 
publicly say, ``I did not take a dime from special interest 
groups. I am beholden to no one but you as a voter, and I will 
represent your interests if I am elected.''
    Now, they will be able to say that. Those who do not engage 
in the system will not. Those who do not engage in the system 
probably will have more money to spend. But I am betting on the 
American people when it comes down to this. If you have people 
who stand up and honestly say, ``I am here because of small 
donations and I did not get the money from special interest 
groups. My opponent went the other way and spent a lot more 
money. You are going to see that person on TV and hear him on 
radio a lot more. Take your pick.'' I think that is a fair 
match.
    Not one penny of taxpayer money will be used to fund this 
system. We would pay for it by asking the businesses and 
corporations who earn more than $10 million a year in federal 
contracts to pay a fee of one-half of one percent, up to 
$500,000 per year.
    Incidentally, these same corporations are now usually the 
owners of big political action committees which spend 
dramatically more money than that on campaigns. So this is not 
a new hardship or burden to these major corporations and 
businesses.
    This Fair Elections Now Act will amplify the voice of 
everyday Americans and, I hope, will break some of the gridlock 
in Washington.
    You might wonder why it is so hard to cut a defense program 
from the Pentagon or why Congress cannot get rid of tax 
benefits for certain corporations and special interests. The 
answer, I am afraid, is very clear.
    For every program, tax break, or government contract, there 
is usually a lobbyist on deck ready to pounce when their 
client's pet project is threatened. There is nothing wrong with 
that. That is part of our constitutional process, petitioning 
Congress.
    Members of Congress thinking about cutting the program, 
though, often have to look into the eyes of the same lobbyist 
who is writing a check that evening or the previous day to 
their campaigns. It is a vicious cycle in a corrupting system. 
It needs to end.
    Lobbyists and special interest donors will not have that 
kind of influence over candidates who participate in the Fair 
Elections system. Restoring a government of, by, and for the 
people requires reforming the way we finance Congressional 
campaigns. The Fair Elections Now Act is the vehicle, I hope, 
that will start that conversation.
    [The prepared statement of Senator Durbin appears as a 
submission for the record.]
    I am going to start with the panel here, and as I said, if 
a minority Member of the Committee appears, I will give them an 
opportunity for an opening statement.
    We welcome this panel of three. Each witness will have five 
minutes for an opening statement, and as is the custom of this 
Committee, I begin by swearing the witnesses in, so if you 
would all please stand and raise your right hands.
    Do you swear or affirm the testimony you are about to give 
before the Committee will be the truth, the whole truth, and 
nothing but the truth, so help you God?
    Mr. Simpson. I do.
    Ms. Youn. I do.
    Ms. Mitchell. I do.
    Chairman Durbin. Let the record reflect that all three of 
the witnesses have answered in the affirmative.
    Now, the first witness is no stranger to these halls. His 
name is Alan Simpson. Alan Simpson, the former Republican 
Senator from Wyoming, is co-chair of Americans for Campaign 
Reform, a nonpartisan organization he co-chairs with Senators 
Bradley, Bob Kerrey, and Warren Rudman. He was also--and I know 
very well--the co-chair of President Obama's Commission on 
Fiscal Responsibility and Reform.
    Al Simpson was a member of the Wyoming State Legislature 
for 13 years, served in the Senate for three terms, and for 10 
of those years he had the same job I have--Assistant Majority 
Leader. After leaving the Senate, Senator Simpson was a 
visiting lecturer and director of the Institute of Politics at 
Harvard University's John F. Kennedy School of Government.
    I did not know that Harvard was a recognized institution in 
Wyoming, but now that you have bridged that, I----
    Mr. Simpson. It is a beautiful thing.
    Chairman Durbin. It is a beautiful thing.
    In 2000, he returned to his alma mater, real alma mater, 
University of Wyoming, to teach. He is a partner in the Wyoming 
law firm of Burg Simpson and a consultant in the Washington, 
DC, firm Tongour-Simpson Group.
    Senator Simpson, I thank you for joining us today. It is an 
honor, and the floor is yours.

 STATEMENT OF HON. ALAN SIMPSON, FORMER U.S. SENATOR FROM THE 
                STATE OF WYOMING, CODY, WYOMING

    Mr. Simpson. Well, Mr. Chairman, and Lindsey, wherever he 
is, let me just say a word. I thank you for this opportunity to 
testify. The last part about Tongour-Simpson is one arrest, I 
am not involved with them at all. I never have been a lobbyist. 
That would have prevented me from going on the floor and seeing 
my chums from both sides of the aisle.
    I want to say a word about this Chairman. We served 
together on the National Commission on Fiscal Responsibility 
and Reform. This is a splendid person who took heat and voted 
for the final report, and I remember his last remarks. When he 
finished voting, he said his son called and said, ``Thanks, 
Dad.'' And that is what this is about, what we do over there. 
We are doing it for 15 reasons. Erskine and I, he has got nine 
grandchildren and I have six. Well, enough of that.
    But my father was in World War I. He was a veteran. He had 
a phrase that fits Senator Durbin: ``He has got more guts than 
a government mule.'' I will leave it at that for you to discern 
how deeply that goes.
    And then to see Cleta over here, whom I have not seen for 
years, and to meet with Monica, what a pleasure.
    Well, I see the button, and I know that you are very 
difficult when it goes over five minutes. You have covered who 
is on this group Americans for Campaign Reform, John Rauh and 
Dan Weeks--amazing people--but we have to do something here. 
This is really an extension of what you and I did on the 
Commission. The reason the gridlock is there, is when we 
discovered $1,100,000,000,000 in tax expenditures, which is 
just spending by another name, or earmarks, it is because of 
the power of the lobbyists and the power of the vested 
interests.
    So, anyway, growing older has a way of focusing on things 
you leave behind, and when I take stock of the country that my 
children and grandchildren will have, I shudder because the 
causes of concern are many. I will not pretend to offer them 
all.
    There is an old guy in Wyoming--he died--very wealthy, and 
they said, ``How much did he leave? '' And an old cowboy said, 
``All of it.'' Which is about what it is. And we are going to 
leave nothing for these young people, and part of it is because 
of this twisted system.
    Well, we will never get things right, and I did serve, as 
you did, as assistant Majority and Minority Leader under Bob 
Dole. I cannot tell you the times that we would be in the midst 
of debate at night, and Bob would say, ``We are going to have a 
vote at about 10 o'clock.'' And they would say, ``I have to be 
in Detroit at 10 o'clock,'' or ``I have to be in L.A. at 10 
o'clock because I have a fundraiser.''
    So Bob and I would finally say, ``Well, it might be a great 
idea to recall that you came here to legislate and could you 
that? Wouldn't that be wonderful? You could come here and do 
what you get paid to do? '' And that is called legislate, not 
go to the cubicle and raise money with a Rolodex and spend half 
your day in there for your next campaign.
    Absolutely absurd, and you have seen it, and I have seen 
it. The system does not work. You do not have time to visit 
with colleagues. You do not have time to speak with each other. 
You do not have time to commingle in social events. You are 
stuck--stuck in a trough of raising bucks.
    And then, of course, the Supreme Court decision is a 
hammer. I do not get it. I do not understand how you can have 
``corporate personhood.'' That is really from Oz. But so it is, 
and it will clog the system in ways that you and I will never 
know--and already is. So few people give of the private sector 
because the others crowd it out.
    Well, I see I have one minute, this yellow light. I have 
this beautiful testimony. I scribbled all over it on your 
behalf. I came here on my own expense. What in the world am I 
doing here?
    No, I did not mean that. I can leave that out. This is 
going to go into the record, anyway.
    Ah, yes, why is it that the same Congress that authorizes 
the VA to negotiate discounts on pharmaceuticals has made it 
illegal for the government to negotiate such discounts for 
millions more of our elderly and disabled?
    Why is it that Congress continues to approve the multi-
billion-dollar contracts when the Pentagon does not even want 
the equipment? Why do public employee pensions often exceed the 
private sector equivalents?
    Why is it that all of these issues and more, which together 
account for hundreds of billions in tax expenditures, have not 
factored more strongly into our current budget debate? It is 
absolutely--we all know what is happening, all of us. All of us 
were here.
    So I think this is a very good bill, and I think the 
financing of it is a very good measure. I think that is good. 
If you figure out what they have spent with PACs, what they 
would be putting in to fund this effort would be certainly 
nothing excessive.
    But in our final report, which you signed on to, Erskine 
and I observed, as you did, ``In the weeks and months to come, 
countless advocacy groups and special interests will try 
mightily and savagely and heavily to exempt themselves from 
shared sacrifice and common purpose. The national interest, not 
special interests, must prevail.''
    So, in the future of our country, I think if it is going to 
continue as great Nation, you have got to get a handle on this, 
which is directly responsible for the gridlock we see every day 
in the news.
    I thank you very much, and go forth and multiply.
    [The prepared statement of Mr. Simpson appears as a 
submission for the record.]
    Chairman Durbin. I will have some questions.
    Cleta Mitchell is a partner at Foley & Lardner and a member 
of the American Bar Association's Standing Committee on 
Election Law. We are honored that she has joined us today.
    Ms. Mitchell serves on the Board of Directors of the 
National Rifle Association. She is the Chairman of the American 
Conservative Union Foundation and President of Republican 
National Lawyers Association. She has served as legal counsel 
to the National Republican Senatorial Committee and the 
National Republican Congressional Committee.
    Ms. Mitchell is a former member of the Oklahoma House of 
Representatives. She served as director and general counsel of 
the Term Limits Legal Institute. She has litigated cases in 
State and federal courts nationwide, served as co-counsel in 
U.S. Supreme Court cases on Congressional term limits and the 
2002 federal campaign finance law. She received her Bachelor's 
degree and Juris Doctorate degrees from the University of 
Oklahoma.
    Ms. Mitchell, please proceed with your testimony.

    STATEMENT OF CLETA MITCHELL, PARTNER, FOLEY & LARDNER, 
 WASHINGTON, D.C., AND PRESIDENT, REPUBLICAN NATIONAL LAWYERS 
                          ASSOCIATION

    Ms. Mitchell. Thank you, Mr. Chairman. It is an honor for 
me to be with you this morning. My written testimony, of 
course, will be made part of the record. I want to just touch 
on a few highlights.
    First, this hearing is entitled ``Fair Elections Now Act: A 
Reasoned Response to Citizens United.'' I want to talk about 
Citizens United because I think there has been much that has 
been said about it which is not based on fact.
    Citizens United was actually a return to the jurisprudence 
of the Supreme Court prior to two aberrant decisions, and in 
the Citizens United decision, the Supreme Court cited 22 cases 
going back 60 years of Supreme Court precedent which 
establishes that corporations have First Amendment rights.
    There is a very real body of law going back more than a 
century which established that corporations under American law 
have personhood or citizenship rights. So to say that Citizens 
United is somehow a departure is not correct.
    What Citizens United did was restore the precedent that 
existed prior to 1990 when the Supreme Court in the decision 
Austin v. Michigan Chamber of Commerce departed from its 
historic ruling that corporations--that entities, whether it is 
corporations or political parties or individuals, have a right 
to make independent expenditures.
    Citizens United is not about contributions. In fact, the 
Supreme Court specifically said in that decision that all of 
the body of law related to contributions to federal candidates 
were undisturbed. What Citizens United said and what it stands 
for is the proposition that corporations do have First 
Amendment rights, as had been the Court's decision since the 
early 1950s, and that the government and Congress have no 
constitutional authority to deny speech rights to any source 
simply because of the form of that source or the speaker. That 
is what the Court said, is that Congress was essentially 
putting itself in a position of granting speech licenses and 
that that does not meet the First Amendment test.
    I want to turn specifically to the bill before the 
Subcommittee, Senate bill 749, and I want to call to everyone's 
attention that this Friday there will be a national referendum 
on this legislation. Millions of Americans will go to the polls 
and will cast their ballots on whether or not they believe in 
public funding for federal candidates. When they file their tax 
returns this Friday at their local post offices, they will vote 
overwhelmingly that their answer is no.
    The only public funding mechanism we have today for federal 
candidates is the Presidential financing system, and fewer and 
fewer and fewer Americans participate in that system. Ever 
since Congress tripled the amount of money that people could 
check off on their income tax to give to that system, the total 
amount of the funding provided by the American people has gone 
down. The last year for which there are any statistics, which 
is 2007, only 8.5 percent of the American people participated. 
So I think that to say that this is something the American 
people want is to not look at the facts. They vote on it every 
year.
    Now, specifically with regard to this bill, this bill was 
first introduced in 2007 in much the same form, and that is why 
it is a little odd to me to say that this is a response to 
Citizens United because this is the third Congress in which 
this bill has been introduced. But it was before the 2008 and 
the 2010 cycles, and I want to quickly share some statistics 
with you about Senate campaigns in 2010. I am not even going to 
talk about the 2008 cycle where President Obama opted out of 
the public financing system and raised and spent substantially 
more, $750 million to John McCain's $84 million in the general 
election, that he got from the government. Anyone who is 
running for President now who would seek to participate in the 
Presidential financing system probably is not qualified to be 
President.
    But I want to call to your attention what happened in 2010. 
When you say that you need to have some kind of government 
program so people can have a chance to run, I want to call to 
your attention just some Senate races last year.
    Let us start with Harry Reid. He raised and spent $26 
million in his Committee for re-election. Sharron Angle, his 
Republican opponent, raised and spent $27 million. Her third 
quarter report--I represented her, and so I had to make 
arrangements to file the report because Senate candidates do 
not file electronically. When we delivered her third quarter 
report, it was 9,112 pages; it filled three banker's boxes, was 
three feet high, four feet long, and weighed 103 pounds. She 
raised $14.4 million in the third quarter alone from 194,000 
donors, with an average contribution of $73. The average 
contribution to her entire campaign was $92. And that is but 
just one example.
    Senator Specter was a co-author of this bill in prior 
Congresses. He raised and spent $15 million to lose his primary 
campaign to Joe Sestak, who raised and spent $6 million. And I 
could go on and on.
    The fact is the bill is not needed. It is an anachronism. 
It is an idea whose time has come and gone. And I would urge 
the Committee not to move forward with the bill.
    [The prepared statement of Ms. Mitchell appears as a 
submission for the record.]
    Chairman Durbin. Thank you very much, Ms. Mitchell.
    Our next witness is Monica Youn. Did I pronounce that 
correctly?
    Ms. Youn. That is right.
    Chairman Durbin. Thank you. Monica Youn directs the Brennan 
Center Campaign Finance Reform Project. She was previously in 
private practice and served as a law clerk to Judge John T. 
Noonan of the U.S. Court of Appeals for the Ninth Circuit. She 
received her J.D. degree from Yale Law School, her Master's in 
philosophy from Oxford, where she was a Rhodes scholar, and her 
B.A. from Princeton. She has litigated campaign finance and 
election law issues in State and Federal courts. Ms. Youn was 
co-lead counsel for intervenor defendants in McComish v. 
Bennett, the Arizona public financing case currently pending 
before the Supreme Court. She is the editor of the forthcoming 
``Money, Politics, and the Constitution: Beyond Citizens 
United.''
    Ms. Youn, the floor is yours.

 STATEMENT OF MONICA YOUN, SENIOR COUNSEL, DEMOCRACY PROGRAM, 
  BRENNAN CENTER FOR JUSTICE AT NEW YORK UNIVERSITY SCHOOL OF 
                    LAW, NEW YORK, NEW YORK

    Ms. Youn. Thank you, Mr. Chairman, Members of the 
Committee. Thank you for inviting me to testify today.
    In the Citizens United decision last year, five Justices of 
the Supreme Court took a look at our federal elections and 
decided that the real problem is that corporations just do not 
have enough influence over our politics.
    Now, whatever you may think of this diagnosis, we are now 
starting to feel the results of the Supreme Court's 
prescription. For the first time in 100 years, we have 
unlimited spending out of corporate treasuries in federal 
elections.
    So let us look at what happened in 2010. The first thing 
that we saw there was we saw a massive rise in outside 
spending, the type of spending enabled by Citizens United out 
of corporate treasuries. We saw $280 million in independent 
spending, which is a doubling of the figure from 2006, and that 
figure is widely expected to double again in 2012. We are 
seeing an escalating arms race of fundraising.
    The second phenomenon we saw was an increase in the 
darkness of our politics. More than a third of the independent 
spending in the past election was dark. We have no idea who 
funded these campaign advertisements or what their agendas 
might be. I mean, we have some glimpses that are provided by 
independent investigations.
    For example, the New York Times determined that the 
American Future Fund, which spent $10 million running ads 
about, for example, the Ground Zero mosque, was, in fact, 
funded almost entirely by the ethanol industry, and the true 
target of that ad campaign was to target Committee members 
sitting on agriculture policy and energy policy committees.
    We also saw in the last election the rise of what are 
called super PACs, which are PACs that are able to accept 
unlimited contributions from corporate treasuries and from 
individuals. Not that they can accept corporate contributions, 
we can't know if the PAC contribution is coming from corporate 
or its innocuous conduit
    Now, you can think of these super PACS and similar groups 
as sort of the Godiva chocolates of fundraising. They are very 
rich; they are very dark; and you have no way of knowing what 
is inside them.
    These super PACs poured tens of millions of dollars into 
the midterm elections, and in 2012 they have pledged to make 
that hundreds of millions of dollars.
    Now, why is this all a problem? Why is this escalation of 
especially independent spending a problem for our democracy?
    Corporate independent spending poses a major risk of 
corruption because it is functioning as the new soft money. 
Corporations view it as an investment, a quid pro quo to buy 
favorable treatment from elected officials.
    For example, my testimony details the example of an Indian 
tribe in Kansas who went to a legislator and said, ``Look, we 
will run an ad campaign supporting you if you will vote in 
favor of our casino.''
    We also detail a North Carolina example where a farmers 
lobby went to a legislator, ran him a series of smear campaign 
ads, and said, ``You had better switch your vote about the farm 
subsidies, or we will run this smear campaign against you.'' Of 
course, the smear campaign had nothing to do with the farm 
subsidies. It was simply character assassination.
    It is no wonder that, as Senator Durbin outlined so 
dramatically, the American public is experiencing a crisis of 
accountability. So let us talk about how Fair Elections can 
help.
    Fair Elections allows candidates to make a choice. Who are 
they going to be accountable to? Are they going to be 
accountable to the big money backers, the middlemen? Or are 
they going to be accountable to the electorate at large?
    Fair Elections also incentivizes political participation. 
The point is not to get money out of politics. The point is to 
expand the field of those who have a stake in our political 
campaigns.
    Ms. Mitchell gave you some examples of a couple of 
instances where there was some grass-roots fundraising, but I 
have to tell you, that is not the norm. Currently, only one out 
of 400 voters contributes to Congressional elections. In the 
past cycle alone, lobbyists and other DC-based contributors 
provided almost $300 million of Congressional campaign 
spending. That is more than the total contribution of 32 States 
combined.
    So if only one out of 400 is currently contributing to 
political campaigns, Fair Elections is about the other 399. 
Other jurisdictions who have adopted public financing have seen 
huge increases in the numbers of small donors who now feel that 
they have something at stake in our political campaigns.
    I wanted to end with a story. It is the story of an 
insurgent candidate who used public financing to challenge a 
well-known incumbent. This candidate had broad-based popular 
support at the grass roots, but lacked the support of the money 
men of the party. During the crucial primary month of January, 
this candidate was down to $44,000 cash in hand. Only the 
infusion of $1 million in primary matching funds that was 
enabled by the widespread donations this candidate had received 
from small donors across the country enabled this candidate to 
save his campaign. This candidate's name was Ronald Reagan, and 
he was the single largest beneficiary of Presidential public 
financing funds in our Nation's history.
    Fair Elections translates popular support into winning 
campaign without requiring candidates to sell out to big money 
backers. That is why we urge the Committee to support this 
bill.
    [The prepared statement of Ms. Youn appears as a submission 
for the record.]
    Chairman Durbin. Thank you.
    Senator Simpson, the Fair Elections Now law is voluntary. 
Should I volunteer to be part of the system. I really hold 
myself to a pretty high standard. By my calculation I have to 
find about 2,500 folks in Illinois who are willing to make 
contributions of $100 or less for me to get into the system. So 
there is some pretty active grass-roots campaigning. It is a 
big State, but that is still pretty active grass-roots 
campaigning to get involved in the system. And then I limit 
myself to how much I can receive, the amount I raise, plus the 
matching funds and the like. So it's totally voluntary.
    There is another side of the equation that Ms. Mitchell 
alludes to and that the Supreme Court talked about, and that is 
the larger issue--the larger issue of free speech in America 
and whether or not corporations should have First Amendment 
rights to free speech. In other words, should we in any way 
limit the role of corporations in the election process? That 
does not relate at all to my bill, because the bill still 
allows them under existing law to continue whatever they are 
going to do under Citizens United or any other auspices. But if 
you would for a moment, could you address from your 
perspective, the flinty-eyed views of a cowboy Republican 
Senator, this issue of free speech and whether or not there's 
an inhibition of free speech if we limited the role of 
corporations?
    Mr. Simpson. Mr. Chairman, you described me, and then I 
should describe you, as a tough old prosecutor from Illinois, 
but we both share the same views on this one.
    First of all, if you had to do that and get 2,500, that 
shows support. You cannot just come in and wade into this bill 
and say, ``I want to run for the U.S. Senate or Congress, and I 
have two people who love me.'' You have to show that people 
care and they are going to put up the bucks. I think that is 
very critical.
    I remember the days in my ancient time when there was a 
thing called COPE. It meant Committee on Political Education. 
It was solely union-backed, and then the corporations went 
goofy thinking how do these guys get away with this. So they 
formed PACs. So that was the corporate way of getting in to 
kill off COPE. But now they have both in it, and now they are 
both playing in this pool big time, unions--I think Republicans 
who are thrilled with this present system think that it is just 
going to enrich them. Wait until the unions gear up on this 
baby, and then there will be real competition for the bucks to 
pour into the system.
    And you get back to the real issue. We were elected to 
legislate. You cannot legislate when you are raising money day 
and night. And you finish one cycle. Forget figures, forget--
and both of these presentations were excellent. But forget the 
numbers. The American people think we are on the take. They 
think that these guys out here are on the take, and if they 
were not, they would get something done. Why don't they do 
something? And the issue is they cannot because in wanders Old 
Slick, who maxed out on you 15 times in your 20 years here, he 
has taken you to dinner, he has had your staff plastered for 10 
years with the finest wine they could ever get hold of they 
have never seen back in Bug Hollow, and there they are. And 
they say, ``Hey, Eddie, you want to help us.'' ``Yeah, I do.'' 
And they do. And that--it may be right, but it stinks. It 
smells bad. And that is what this is, as I see it.
    Chairman Durbin. So let me, before I go to questions, say--
--
    Mr. Simpson. I did not answer your question, but I got a 
lot off my chest there.
    [Laughter.]
    Chairman Durbin. You got real close to it. And my staff 
wasted no time correcting me. It turns out I need 11,500 donors 
in Illinois to qualify. That is dramatically more than four 
times what I originally thought.
    Ms. Mitchell, I have read your full testimony in advance 
here, and it was well written, as I expected it to be.
    Ms. Mitchell. Thank you.
    Chairman Durbin. And it turns out to be a very strong 
defense for the current system. I do not know if you are in 
favor of reform or not, but I want you to address Ms. Youn's 
one element of what is going on in campaigns in America. In her 
testimony, she says Citizens United has actually accelerated 
``a sharp decline in disclosure of political expenditures.''
    ``Among groups making `electioneering communications' 
(campaign advertisements that mention a candidate), disclosure 
of donors has dropped from 96.8 percent in 2006, to 49.3 
percent in 2008, to a scant 34 percent in 2010.''
    ``Among groups making independent expenditures, disclosure 
of donors dropped from 96.7 percent in 2006, to 83.3 percent in 
2008, to 70 percent in 2010.''
    Back to her Godiva chocolate analogy, do you think it is in 
the best interest of our country for the donors to political 
campaigns to be invisible? Do you think secrecy in this process 
makes a democracy stronger?
    Ms. Mitchell. Well, Mr. Chairman, I have a couple of 
responses.
    First of all, let me correct something that Ms. Youn said 
which is incorrect when she made reference to super PACs as 
being the Godiva chocolates. Every contribution to a super PAC 
of over $200 and every disbursement of over $200 to a super PAC 
is disclosed publicly to the Federal Election Commission, so I 
am not sure where it gets to be Godiva chocolate because it is 
pretty transparent.
    With respect to the examples of the Native American tribe 
and the farmer, the farm subsidies in North Carolina, frankly, 
if that indeed happened, that is illegal under current law. 
Citizens United only applies to independent spending, and there 
are very strict regulations regarding what constitutes 
independence and what constitutes coordinated expenditures. 
And----
    Chairman Durbin. What about these numbers that I mentioned?
    Ms. Mitchell. These numbers, I am getting to that. The 
numbers that you refer to, let me just say this: The Federal 
Election Commission at the instigation of the labor unions--not 
corporations, but at the instigation of the labor unions--got 
the FEC to change the regulations on disclosure after 2006. 
There was a requirement that if an organization was to make 
independent expenditures or electioneering communications, 
those had to be made prior to 2006 and during the 2006 cycle 
from a separate account.
    Chairman Durbin. I need to really bring you back to my----
    Ms. Mitchell. Well, I am getting to that. I am trying to 
help you understand the----
    Chairman Durbin. You need to answer the question because I 
am out of time, please.
    Ms. Mitchell. Well, because the system changed at the FEC.
    Chairman Durbin. Is it changing for the better? Do you 
believe transparency or secrecy is better when it comes to 
political donations?
    Ms. Mitchell. I do not think that is the right question. I 
would be----
    Chairman Durbin. That is my question, so I am asking you.
    Ms. Mitchell. Well, I frankly think that when the NRA makes 
an expenditure, you know where that is coming from. And anyone 
who makes a contribution to an organization in order for that 
organization to be able to make an expenditure related to 
politics, it is required under current law to be disclosed.
    Chairman Durbin. Let me ask Ms. Youn to respond before I 
turn to Senator Blumenthal.
    Ms. Youn. Sure. The only way in which someone who 
contributes to an organization that is going to make an 
independent expenditure is required to disclose it is if that 
funder specifically earmarks that fund only to be used for 
these kinds of electioneering communications. If the funder 
does not earmark the fund, which pretty much none of the 
sophisticated funders do, then they have no such requirement. 
The money goes into a general dark slush fund out of which the 
entity can fund electioneering communications or not.
    You know, the real problem here is one of transparency. 
What Citizens United did is it set up categories of corporate 
treasury funding that do not have robust disclosure. There is 
no regime in place. Such corporations are not required to 
disclose such spending even to their shareholders or to their 
boards of directors under federal law. You know, there is no 
simple way to track when a corporation is funneling money 
through a conduit organization that then goes into another 
organization--you have this series of covers.
    Chairman Durbin. Thank you.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    First of all, let me thank Senator Durbin for his very 
important and really significant proposal addressing a problem 
that I think all of us agree is an issue most Americans feel is 
a problem in today's democracy, and I want to thank Senator 
Durbin for advancing this debate and for a proposal that I 
think addresses many of the weaknesses and needs in the present 
system. And it is a difficult area legally and substantively, 
and I think none of us in the Senate or in this room, certainly 
none of our witnesses today, have minimized that problem. But 
it is one that people feel is an inherent issue in our present 
democracy because it leads to so many of the abuses that have 
been outlined by a number of you. And I think that one of the 
areas that perhaps the proposal does not address is a 
triggering provision or a provision that somehow enables a 
candidate who may still be outspent dramatically even with the 
system that has been proposed here.
    So I wonder if perhaps, Senator Simpson or Ms. Youn or Ms. 
Mitchell, you could address the issue relating to triggering 
both from a legal and from a substantive point of view.
    Mr. Simpson. I might say, as Senator Durbin well knows, 
that in our work, the Chairman and Co-Chairman of the 
Commission, Erskine Bowles, was the numbers guy and I was the 
color guy, and I would like to hear these two delightful 
attorneys rattle around on that question. It would please me 
greatly, and I would learn greatly. Please.
    Ms. Youn. If I may, the current Fair Elections bill was 
drafted specifically with the sort of legal challenges at issue 
in the Arizona trigger case in mind. I mean, we knew at the 
time we were working on the bill that those were coming up 
through the courts, and we thought that the prudent choice was 
to avoid such challenges.
    Senator Blumenthal. And as you know, the Connecticut system 
was struck down by the Second Circuit Court of Appeals.
    Ms. Youn. Exactly, and, you know, we litigated that case as 
well. And so we are as aware as anyone of the current legal 
status of the trigger provisions.
    Fair Elections contains no such triggers, and even in the 
Supreme Court's recent oral argument in McComish v. Bennett, 
the Court and the petitioning attorneys made it absolutely 
clear. The constitutionality of public financing is not in 
doubt. The Court may have taken issue with a particular 
provision, this trigger provision, and they may vote to uphold 
it or they may vote to strike that down. But that has nothing 
to do with the constitutionality of public financing.
    If I might address very quickly the practicality of public 
financing without trigger provisions, I think that your own 
home State of Connecticut provides a great example there. You 
had Dan Malloy, the current Connecticut Governor, who was a 
publicly financed candidate, who fought off much more well-
financed private candidates--Ned Lamont and Tom Foley--in both 
the primary and the general elections, and prevailed using 
public funds, using exactly the message that Senator Durbin put 
forward: ``I am here. I am not taking special interest money. I 
am accountable not to special interests but to the 
constituents.''
    Senator Blumenthal. Thank you.
    Ms. Mitchell. Mr. Chairman and Senator Blumenthal, I think 
that the thing that I would ask the Senators to do is to step 
back and look at what has happened in the last two cycles. I 
think we have reached a point in our country where individuals 
can participate in the system through the Internet. When our 
campaign finance regulatory scheme was created in 1974, there 
were three networks, no Internet, no cable, no satellite, no 
talk radio.
    And people now can participate directly in supporting 
candidates that they want to support without a government 
program. And I only had time to mention in my oral testimony a 
couple of examples, but if you look at the 2010 cycle and look 
at 2008 with President Obama, I think we have reached a point 
where these government programs are no longer necessary for 
people to be able to run and be successful in raising money and 
to be competitive with small donations. And I would just urge 
you to take a step back and look at the system that has been 
created quite outside the government.
    And one last point. This bill does not ask federal 
contractors to support the system. It mandates federal 
contractors to fund this proposed system. Under current law, it 
is illegal for a federal contractor to make a voluntary 
contribution to a candidate that he or she supports. But this 
bill would mandate that a federal contractor must support a 
system which can end up funding a candidate with whom they 
thoroughly disagree. I do not know how that possibly passes 
constitutional muster.
    Senator Blumenthal. Even with those potential sources of 
money, however, isn't there a reality here that the imbalances 
of funding can be so disparate and the appearances are so 
corrosive to trust and confidence in the democratic system?
    Ms. Mitchell. Well, every time anyone comes with a campaign 
finance proposal, with a lobbying reform proposal, it is 
always, ``This is going to restore the faith of the American 
people in the system.'' I happen to believe very strongly that 
it is my right as an American citizen not to like Congress. I 
am entitled to that. And there is no law that you can pass to 
make me like Congress. And I think the most important thing to 
do in analyzing these proposals is to apply First Amendment 
principles.
    What the Citizens United Court said was that just because 
people organize themselves into a corporate form does not 
render them unable to speak. And what we saw was exactly what I 
thought would happen. I represent a lot of conservative issue 
groups. You know, I always say my practice is I am the 
consigliere to the vast right-wing conspiracy. And what we saw 
was that they did not raise money from corporations. These are 
not-for-profit corporations that raised money from individuals 
and were able to spend it out of their corporate treasuries. 
That was the impact of Citizens United.
    Senator Blumenthal. And I do not view this proposal as an 
attack on corporations or corporate contributions, nor do I 
view it as an effort to make people like Congress, but perhaps 
trust Congress a little bit more.
    My time has expired, so thank you very much, Mr. Chairman.
    Chairman Durbin. Thank you, Senator Blumenthal.
    Senator Franken.
    Senator Franken. Yes, I am sorry I was not here for the 
testimony--hi, Alan--but I did read it last night.
    Ms. Mitchell, I was struck by a number of things that you 
found amusing, and in my old business, anybody who found 
anything amusing was good.
    [Laughter.]
    Ms. Mitchell. Thank you.
    Senator Franken. And you are easily amused.
    This thing about the public would be upset--Myth Number 3: 
The public would be upset to know how much time Senators have 
to spend raising money. And you say there is nothing wrong with 
Senators having to go out and mix among the people. There is a 
little difference, you know, mixing among the people, going to 
town meetings, going to floods like I did this week, talking to 
different community groups, and doing fundraising. You know 
that, right?
    Ms. Mitchell. Well----
    Senator Franken. You do not?
    Ms. Mitchell. I mean----
    Senator Franken. I find that amusing.
    Ms. Mitchell. Those are two different kinds of events, but 
I also believe very strongly that the last link that requires 
Senators to do something that they do not want to do is to have 
to go out and ask people for money and to say, ``This is my 
job. I hope you like the job I am doing. I hope you will help 
me stay here.'' I do not think there is anything wrong with 
that. I think it is un-American to suggest otherwise.
    Senator Franken. I am sorry. God, I did not think I was un-
American. And I did not think Alan Simpson was either.
    Mr. Simpson. Yes, but you and I know too much about each 
other.
    Senator Franken. Yes.
    You say that you have to go out--you compared yourself to a 
Senator in this. You say, ``If I am to be able to have a 
paycheck to support my family, I have to not only be able to do 
my job as an attorney--knowing the substance of the law, doing 
my work, taking care of my clients' needs . . . but I also have 
to market my services, ask people to hire me, get paying 
clients . . . and then I have to keep track of my time, prepare 
and send invoices, collect receivable and generally run my 
business.''
    Do you think that Senators should find people to pay us? Do 
you think that we really should not be paid by the government 
but that we should really do that----
    Ms. Mitchell. No.
    Senator Franken. No?
    Ms. Mitchell. No.
    Senator Franken. Well, that seems to be--see, I find that 
amusing, because in your testimony you seem to suggest that.
    Senator Simpson, did you find what Ms. Mitchell said 
convincing about going out to ask people to give you money, 
doing fundraisers, calling people on the phone is the same as 
just going out and meeting your constituents?
    Mr. Simpson. No. But I think the people should know, 
Senator, that you and I did a few shticks together, both 
members of the Screen Actors Guild, and I do not know why I 
ever appeared on your program, ``LateLine.'' It was the 
goofiest thing I ever enjoyed. But I just thought I would throw 
that in so they knew. And then I invited you to Harvard. You 
remember that. You set them on fire there.
    Now, the question is: All I know about me, I felt used when 
I had to go raise money. I was embarrassed. I thought it was 
ugly. I thought it was demeaning. My staff kept saying, ``You 
got to go do it.'' I said, ``I do not like it.'' And then they 
would say, ``The Republican Eagles are coming to town, and you 
are going to make a call. And then Presidents night is coming 
up, and you get a Rolodex and you get to go outside the 
building for a whole day and dial numbers of jerks you have 
never heard of in your whole life to get money out of them.''
    I said, ``I will not do that.'' They said, ``Well, you have 
to. It is for the party.'' I said, ``When they come to town, I 
will go speak to them at lunch, not to raise money, just, you 
know, if they wanted to see me or talk, that was great.'' But I 
tell you, if you talk to the gut of any guy who is in public 
life who tells you he just loves to go beg for money, 
especially after he has just finished one election cycle, you 
are talking to a delusional person.
    Senator Franken. Okay. Let us get into--Ms. Youn, in your 
testimony you said there are only--not only are third-party 
groups spending more on elections, they are disclosing less 
about who is bankrolling spending. Now, Ms. Mitchell writes, 
``Other than members of labor unions whose dues are mandatory 
and who are not allowed to withhold amounts that might be spent 
by their labor unions for political purposes, generally 
speaking in America, campaigns are funded from the voluntary 
after-tax contributions of the citizens.''
    If I am giving to--if I own stock in a corporation that is 
giving money to this third party and I do not know it, they do 
not disclose it, aren't I contributing?
    Ms. Youn. Yes, you are contributing, and I think that the 
best example of that that people know about is maybe from your 
home State of Minnesota with the Target example, where Target 
spent $150,000 of its shareholder money in support of a 
candidate whose views many of the shareholders of Target simply 
did not agree with.
    Now, the ironic thing about the Target example----
    Senator Franken. And that was only because Minnesota had a 
disclosure law, and we in the U.S. do not have a disclosure 
law, even though Republicans have said this, who then 
subsequently voted against disclosure: ``Clearly the American 
public has a right to know who is paying for ads and who is 
attempting to influence elections. Sunshine is what the 
political system needs. We can try to''--these are different 
Republicans who are around. This is what they said during 
McCain-Feingold. ``We can try to regulate ethical behavior by 
politicians, but the surest way to cleanse the system is let 
the sun shine in.''
    I do not like it when a large source of money is out there 
funding ads and it is unaccountable. Why don't you continue, 
Ms. Youn? I am sorry to interrupt you. But I just want to--
there is a lot of hypocrisy here about just disclosure.
    Ms. Youn. Exactly, because at the same time these 
statements are being made in favor of disclosure, new 
organizations, new strategies are being set up, you know, 
particularly to avoid disclosure. The super PACs that we 
discussed earlier set up their own arms that are nonprofits 
that do not have to disclose their donors. And we have found 
this just escalating, and more and more money is going dark.
    Senator Franken. And now in 2010, only 34 percent of these 
groups made these disclosures. Is that right?
    Ms. Youn. About a third, yes, exactly, of the groups 
specifically engaging in campaign ads.
    Senator Franken. So it would be really inaccurate to say 
other than members of labor unions.
    Ms. Youn. Yes. I do not know where that----
    Senator Franken. Wouldn't that be just inaccurate?
    Ms. Youn. That seems inaccurate to me. What we know and 
what everyone knows is there is a lot of money out there that 
is paid for by Americans Who Love Children and Puppies, and we 
have no idea that Americans Who Love Children and Puppies is 
actually some corporate-backed interest or some special 
interest.
    Senator Franken. I think there was a corporation that makes 
its money crushing puppies that was behind that.
    Well, I have run out of time, and I am needed back at the 
Energy markup, so thank you very much.
    Ms. Mitchell. Mr. Chairman, could I just correct one thing 
that was referenced with regard to my testimony? That reference 
that you made from my testimony had to do with contributions, 
not expenditures, and as in reference to S. 749, which is a 
contributions bill. It not an expenditures bill. It has to do 
with contributions. And what I said was our system today is 
funded----
    Senator Franken. Excuse me, but how does----
    Ms. Mitchell [continuing]. With voluntary----
    Senator Franken. How does it expend money that is not 
contributed?
    Ms. Mitchell. Well, Citizens United dealt only with 
expenditures. It did not deal with contributions.
    Senator Franken. How does a corporation expend money 
without you having money to spend? And doesn't the people who 
are contributing to that effort include the stockholders?
    Ms. Mitchell. Well, the Supreme Court rejected the----
    Senator Franken. Please answer my question.
    Ms. Mitchell. Well, the corporation, the publicly held 
corporation you are referring to that makes contributions to a 
not-for-profit corporation--is that what you are referring to? 
The not-for-profit corporations are the ones that have made 
expenditures in 2010.
    Senator Franken. I am saying--yes, yes. I am saying that if 
a corporation gives to a party that makes expenditures, the 
corporation is contributing to the third party that is making 
the expenditure. They are contributing, and the people that are 
contributing include the stockholders. And since they are not 
disclosing that they are making this contribution, then they 
fall in the category of someone who is unknowingly contributing 
to something and has no choice because they do not know.
    Ms. Mitchell. And that would be similar to the labor 
unions, correct?
    Senator Franken. So am I confused then?
    Ms. Mitchell. Yes.
    Senator Franken. How am I confused?
    Ms. Mitchell. Well, because my testimony was referring to 
the system that we have of funding campaigns, which is 
voluntary after-tax contributions to PACs and to candidates, 
which is the only source, and all of this talk about the 
corporate--I am really interested to hear this solicitation of 
corporate contributions is a problem for Senators because 
actually that is illegal.
    Senator Franken. The present systems includes, though, 
where--you do not say just candidates. You say causes. So isn't 
this a cause? Wouldn't you call it a cause, these third 
parties? Aren't they causes?
    Ms. Mitchell. They are, and I----
    Senator Franken. So then I think you are confused, 
actually, about your own testimony.
    Ms. Mitchell. Well, I think that we should have a confuse-
off.
    Senator Franken. I think we did, and I think I won. Thank 
you.
    Ms. Mitchell. I do not.
    [Laughter.]
    Chairman Durbin. Well, that is good. Now let us----
    [Laughter.]
    Chairman Durbin. Thank you, Senator Franken and Ms. 
Mitchell.
    If I could clarify, a lot of your testimony, Ms. Mitchell, 
relates to the Presidential campaign financing system?
    Ms. Mitchell. Correct.
    Chairman Durbin. And you say only 8.4 or 8.5 percent of 
taxpayers contribute to it. I would say it is largely a 
confusing system. When I read your testimony, I called the 
accountant who did my tax returns this year and said, ``Now, 
you did check the box where I am giving the money to 
Presidential''--he said, ``I never do.'' I said, ``I want it 
checked.'' So some of these things are not necessarily 
conscious decisions by taxpayers. Some of it is just pure 
confusion about who is paying for what. But 70 percent of the 
American people say they do support Presidential campaign 
financing. And in terms of whether or not there is popular 
support--you talk about the April 15th referendum. For the 
record, both Maine, a purple State, and Arizona, a red State, 
the voters in those States voted for a public financing system 
paid for by taxes. So they made a conscious decision they would 
rather clean up the mess in their States and pay a little bit 
more in taxes than continue what they thought was a corrupting 
system. I think that is a matter of record.
    Ms. Youn, can you comment on whether or not the Fair 
Elections Now Act, what we are talking about, a voluntary 
system of individual candidates who will decide to only take 
small donor contributions and be matched and receive some 
discounts for media, how that stacks up against the Citizens 
United case, whether or not you believe that it addresses any 
of the elements that have been raised by that decision?
    Ms. Youn. Well, Ms. Mitchell is right to say that Fair 
Elections does not directly address the Citizens United 
decision. The Citizens United decision is the Supreme Court. It 
is the law of the land.
    What the Fair Elections Act does, however, is it enables 
candidates to translate popular support into viable campaigns--
campaigns that can survive even in the face of independent 
expenditure attacks. We have seen, for example, Arizona 
Governor Janet Napolitano, who was a publicly financed 
candidate, successfully withstand a $400,000 independent 
expenditure campaign launched against her. We have seen the 
State of Maine, which has been the target of massive 
independent funding by the National Organization for marriage, 
among other groups, also have its publicly financed candidates 
who constitute the vast majority of both parties of its 
legislature withstand those attacks.
    So what we are saying is that, you know, if you are willing 
to say, ``I am accountable to the people and not to special 
interests,'' then as long as you have viable funding, you are 
able to stand up even against the tide of special interest 
money of recent elections.
    Chairman Durbin. So I would get back to this point, Ms. 
Mitchell. I would think--I would stake my reputation on this. 
If I went to the people of my State, whom I know a little 
better than some other places, and said, ``Okay, here is what I 
am going to offer you: shorter campaigns, more direct contact 
between candidates and voters, more disclosure and transparency 
about where my money is coming from that is being spent on my 
campaign,'' I would ask them, ``Do you prefer that over the 
current system? '' And my guess is overwhelmingly yes. 
Overwhelmingly yes.
    The trend in America is exactly the opposite. The campaigns 
go on forever. They inundate the airwaves with organizations we 
have never heard of before or since. Less likely to be the 
Democrat or Republican Party than some other Committee for--
fill in the blank--and fewer and fewer disclosures about where 
the money is coming from.
    It seems to me that what you are defending is not exactly 
what the American people are looking for at this point. Do you 
disagree?
    Ms. Mitchell. I do disagree, Mr. Chairman. I think that, 
first of all, every contribution to your campaign over $200 is 
already disclosed.
    Chairman Durbin. To my campaign.
    Ms. Mitchell. Correct.
    Chairman Durbin. That is not the problem. The problem----
    Ms. Mitchell. Well, I thought you said you would go and 
offer them about your campaign.
    Chairman Durbin. The point I am getting to is people want 
disclosure. They want to know, ``Durbin, who is it that is 
supporting you? '' And they are going to ask the hard 
questions. ``Now, you voted on such and such a day, and you 
received this contribution. Was there a linkage? '' They assume 
there is, incidentally. That is a fair question. They know that 
they can raise the question because I have disclosed.
    Now, if the Committee for the Improvement of America comes 
in and decides to campaign against me and they do not even know 
where the money is coming from, doesn't that put the voter at a 
disadvantage?
    Ms. Mitchell. Well, Mr. Chairman, I actually have some 
proposed reforms that would address most of these problems.
    No. 1, if you think that it is going to make for shorter 
campaigns to raise money in $100 increments, I would beg to 
differ. And it would seem to me that the way to avoid the 
constant money chase is to raise the limits or remove the 
limits and make every contribution, starting with dollar one, 
disclosed.
    Chairman Durbin. Does money equal time in campaigns? Yes.
    Ms. Mitchell. Yes.
    Chairman Durbin. And now you have just taken the lid off 
and said spend as much as you want, raise as much as you want.
    Ms. Mitchell. Raise as much as you want.
    Chairman Durbin. And I would say to you at that point it 
raises a serious question if, instead of a limitation of--what 
is it, $4,800, $5,200? I have forgotten what the number is.
    Ms. Mitchell. It is $5,000: $2,500 primary, $2,500 general, 
this cycle.
    Chairman Durbin. Okay. So now you say now you can take 
$50,000.
    Ms. Mitchell. Yes, and tell me who it is from and tell me 
that before the election.
    Chairman Durbin. See, if I really thought that you were 
committed to transparency, I would wonder how you could defend 
the system now which each year is less and less transparent, 
less and less disclosure, more secrecy in terms of where the 
money is coming from. On the one hand, you are all for 
disclosure, but the current system is moving in exactly the 
opposite direction.
    Ms. Mitchell. Mr. Chairman, there is a reason for that. 
Because of the limits----
    Chairman Durbin. Citizens United.
    Ms. Mitchell. No, no. Because of the limits on 
contributions to candidates and political parties, it drives 
money outside the campaign system. If you remove----
    Chairman Durbin. Secret.
    Ms. Mitchell. Exactly.
    Chairman Durbin. Secret.
    Ms. Mitchell. If you remove the limits----
    Chairman Durbin. That is the current system.
    Ms. Mitchell. I am saying remove the limits on what you can 
give to campaigns. At least remove the aggregate limits.
    Chairman Durbin. I have yet to have anybody in my State 
ever come up to me and say, ``You know what the problem is? You 
are not spending enough money on your campaign. We want to see 
you more on television.'' No. They say, ``When are you going to 
get those darn ads off so we can get back to normal life? '' 
That is really what most people say in my State and I think in 
most other States.
    Senator Blumenthal.
    Senator Blumenthal. Thank you. And I would agree. Whether 
you favor reform or not, most folks would rather see less of us 
on TV rather than more.
    But I want to ask you, Senator Simpson, if you could pick 
just two or three critical things to change about this current 
finance system, as a member of this body for many years and 
someone who has been a veteran campaigner and knows a lot more 
about it than I do, what would you change?
    Mr. Simpson. I think the biggest thing--and this is heresy 
perhaps--is that whatever amount you give, you have to disclose 
who you are and what you own and what shares you have in 
something. And if you are the big donor, I do not care how big 
you get--and, actually, there should be some limits, obviously. 
But if there are none, I have always believed--and I tried it 
in the Wyoming Legislature--in total disclosure. Never got to 
first base because they said, ``We are a small State and 
everybody knows what we are doing.'' They did not know that one 
family is in railroads, trucking, oil, gas, trona, you name it. 
No one with any knowledge of all the things they were involved 
in. And I say if you are going to have anything, it has got to 
be totally, totally transparent from top to bottom, no hiding, 
certainly no anonymous--I mean, if you think that--the American 
people just almost barfed when they heard that people could put 
in money in this last campaign and not tell anybody who they 
were, and then you get the right--you get the extremists on 
both sides, you get the right and the left, you get the nut 
cases on both sides to gather up the money, and there was an 
ad--one of our fine Republicans who I think some of you served 
with, Craig Thomas, he finally had to call the Republican Party 
and say, ``Get these people out of the State. I am not saying 
this stuff.'' They said, ``Well, they are on your side.'' He 
said, ``You would never know it by looking at it.'' He said, 
``Get them out of here.''
    And so to me the singular thing is the absolute total 
transparency, who are you, what are you into, what is your 
octopus, how far do your arms reach in this great country of 
ours, so that you can go back to doing what you are supposed to 
do, which is to campaign, to have caucuses, to have hearings, 
to have markups, to have floor debate--almost unheard of now--
to have conference committees and craft legislation that is 
understood by the governed. That is the purpose of our craft.
    Senator Blumenthal. Ms. Mitchell, do you disagree?
    Ms. Mitchell. I do disagree, because I think that it 
ignores the situation that could be remedied if the Congress 
would do a couple of things.
    If I am a wealthy person and I say, ``All right, I am just 
going to support candidates. I am not going to give to outside 
groups. I just want to support candidates,'' do you know how 
many candidates I can max out to in a given cycle? Eight. Now, 
there is something wrong, and the reason for that is the 
aggregate limits.
    Take off the aggregate limits. Let people give to the 
political----
    Senator Blumenthal. But do you disagree with the point 
about disclosure?
    Ms. Mitchell. If you do it through the candidates and the 
political parties, you will drive money back into the system to 
support candidates and political parties. Let political 
parties--right now--the example that Senator Simpson used about 
the outside spending. Senator Thomas calls the Republican Party 
and says, ``Get those ads off the air.'' Do you realize that 
right now most of the money that the RNC, DNC, DCCC, DSCC, the 
two Senate committees, do you realize that the bulk of the 
money that they raise, which is all disclosed, it has to be 
handed over at some point during the cycle to some consultants 
who go and make the decisions about the expenditures because of 
the prohibition, the limits on the coordinated expenditures 
that party committees can make on behalf of their nominees. 
That is a preposterous system.
    Remove those coordinated limits. Let parties coordinate 
with their candidates. Let the parties raise the money. Remove 
the aggregate limits so that donors do not have to choose 
between the RNC, the NRSC, and the NRCC. Look, I do this for a 
living, and I know----
    Senator Blumenthal. But I take it you do not disagree with 
the disclosure mandates, regardless of how the aggregates and 
the coordination is done.
    Ms. Mitchell. I do not disagree with the disclosure 
mandates, but we have disclosure today.
    Senator Blumenthal. Even if there are corporate----
    Ms. Mitchell. We do not allow corporate contributions to 
candidates or political parties.
    Senator Blumenthal. But if there are independent 
expenditures, as happens under Citizens United, do you think 
there should be no disclosure?
    Ms. Mitchell. We have disclosure. We have--someone made the 
comment that there is no disclosure required under federal law. 
That is simply not true. There are disclosures required. The 
change in the disclosure laws was brought about because the 
unions did not want to have to disclose all their members' 
contributions to electioneering communications. So that was 
changed.
    Senator Blumenthal. Ms. Youn, do you have any comment?
    Ms. Youn. There are some disclosure requirements that are 
easily evaded by sophisticated players. That is why the decline 
in disclosure for electioneering communications and independent 
expenditures that I have detailed in my testimony has occurred 
in the past few cycles.
    Senator Blumenthal. Thank you. Well, I thank all of you for 
your participation, and I have learned something, and, again, 
thank you, Mr. Chairman.
    Chairman Durbin. Thank you, Senator Blumenthal.
    Before I recognize Senator Whitehouse, I find it 
interesting that we think it is corrupting for a corporation to 
give me money which I then use to buy ads, but not corrupting 
for the same corporation to buy its own ads through Citizens 
United. I do not understand that double standard.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman, and thank you for 
holding this hearing.
    I think that the effect of Citizens United on our electoral 
process is very pronounced and very degrading, frankly. The 
first thing that it does is it encourages the true party in 
interest, like an oil company or the insurance association, to 
disguise itself and to set up some kind of phoney-baloney 
entity with a name like Americans for Mom and Apple Pie, and 
then when you see the ad on TV that slams, you know, Senator 
Snooks for being the worst thing since who knows what, it is 
done on behalf of Americans for Mom and Apple Pie, and there is 
no timely way to get behind Americans for Mom and Apple Pie and 
find out actually that was Exxon.
    So that is a real problem, I think, in addition to the sort 
of phoney-baloney--as if there is not enough phoney-baloney in 
politics, we now have to add an inducement to set up these 
phoney-baloney organizations. And then, effectively, we are 
encouraging people who have a lot of money and corporations 
that have a lot of money to basically money launder through the 
phoney-baloney organization and to hide their actual role in 
it. And none of that can be prevented unless we pass a statute 
that requires better disclosure and timely disclosure, more to 
the point, because everybody knows that it gets close before 
the election, and if somebody drops a million bucks' worth of 
advertising in Rhode Island in the last week before an election 
and nobody sees it coming, you do not know that your client--
your opponent has, you know, a million dollars left in their 
account. You know that they are going to spend it. You can sort 
of guess what is going to come. But if it comes in out of the 
clear blue sky, you have no idea, and the election could be 
over by the time the reporting is done as to who was the real 
party in interest.
    So it just helps make all of this so seamy and so sordid, 
and when the previous finding of the United States Supreme 
Court was that unchecked corporate spending in elections is, in 
fact, a form of corruption, and then this Supreme Court, or at 
least the five conservative members of it reversed that on no 
legislative record--because they did not have one. They 
actually sculpted the trajectory of the case so they would not 
have any legislative finding or record and they could operate 
with impunity. And then they make a finding of fact, which is 
what Supreme Courts are not supposed to do. They are supposed 
to leave fact finding to the lower courts. And the finding of 
fact is that this cannot have an effect, there is just no 
possibility that corporate spending in an election could lead 
to or create a reasonable inference of corruption, which, as 
anybody knows who has ever been through an election, is just 
flat false. Not only is it an improper finding of fact, it is a 
complete falsity. It is just nonsense.
    So it is really a spooky thing that has happened in terms 
of the effect it had on the Supreme Court, in terms of the 
effect that it is going to have on our elections, and I would 
add that the scariest part of it is not going to be the 
advertisement that gets run against a Senator or a 
Representative or a Governor under the guise of Americans for 
Mom and Apple Pie. The scariest part of it is the big corporate 
coming into that Senator's office and sitting down with them 
privately and playing the ad, saying, ``Here is what you are 
going to see. We are going to put five million bucks behind 
this ad, and this is what it says.'' And then on comes the 
horrifying negative attack ad. And then they say, ``But we do 
not have to run that. You just vote right with us. You just 
vote right when the Wall Street bill comes up. You just vote 
right when the gulf clean-up bill comes up.'' And away they go, 
and enormous damage is done by that threat, and nobody will 
ever even see that. You do not even know that there is a 
phoney-baloney Americans for Mom and Apple Pie that you can at 
least start looking into and later find out was really a big 
corporate.
    And so I just think that the Citizens United decision, in 
addition to reversing all the precedent and standing the facts 
on their heads, has really created enormous opportunities for 
mischief, particularly on behalf of the people with money. And 
for the life of me, I do not see why in a country in which we 
try to give one person one vote and we try to equalize as much 
as we can, we allow one particular privileged class, which is 
the chief executive officer of a corporation, to have a 
thousand, a million times the weight of anybody else by being 
able to direct corporate funding into a race in his official 
capacity and have an influence on politics that he or she could 
never have in their individual capacity.
    So I do not know. That is more of an expression of shock 
and pain and horror at what this opens up than it is a 
question, but particularly is there anything we can do to focus 
on the behind-the-scenes influence, the threat of here is our 
five million, here is our ad, do what you are told or this is 
coming at you?
    Mr. Simpson. Well, Senator, I have watched you and have 
enjoyed visiting with you during the Commission activities. I 
respectfully say you should have added unions to the same 
scenario that you just gave, and that is what is going to 
happen. It will be the union guys, too, who will walk in with 
the ad and say, ``Here you are, Buster, and this is what we are 
going to do to you.''
    Senator Whitehouse. They do not have anything like the 
money. Not even close.
    Mr. Simpson. What?
    Senator Whitehouse. They do not have anything like the 
money. It is not even close.
    Mr. Simpson. Well, they have got some, just little tidbits 
laying around perhaps. But, anyway, I would just say if we are 
going to go this way, then I am probably the only living 
Republican right now trying to help get this thing done. I 
always get in these marvelous causes. But the Republicans 
believe just as you have suggested, but let me tell you, on the 
other side of that coin is the union people sitting right in 
front of that guy saying, ``We may not have what the big shots 
have, but we got a little kitty here and we are going to blow 
it on you, and here is the ad.''
    I mean, to leave out all aspects--the only way to get 
anything done here is a balance, and if we cannot get a balance 
in what we do here or what we did here, I think it is a 
mistake.
    Senator Whitehouse. I would be happy to have it apply to 
both. I think the danger is less because the money is less.
    Mr. Simpson. I do not hear well. I do not hear well. What 
was that?
    Senator Whitehouse. I am sorry, sir. I said I would be 
happy to have it apply across the board. I used the corporate 
example because I think the danger is worse.
    Mr. Simpson. Oh, good. I hear that. And I would just throw 
out the other example as a thought.
    Senator Whitehouse. You take Exxon-Mobil's last profits, 
and if I recall correctly, with five percent of their annual 
profits they could outspend both Presidential Candidate McCain 
and Presidential Candidate Obama, who collectively spent $1 
billion in the last race. And for a really big issue that is 
going to affect their corporate bottom line, that is not a very 
big spend. So it creates these deafening voices in the public 
arena that no individual can compete with, no union even can 
compete with.
    Mr. Simpson. Well, we know that we will not make any 
progress if it comes down to the usual battering of all those 
things, the big versus the small, the class warfare and all 
that stuff. We will never get through where we are.
    Ms. Youn. And that is, I think, why the simple removal of 
limits that Ms. Mitchell advocates is not sufficient. I mean, 
you can say to me, ``Oh, you are free as a voter to make your 
voice heard. All you have to do is outspend the corporate 
treasury of ExxonMobil.'' That is not freedom for me. You know, 
I am an American citizen, I am a voter. The elections are 
supposed to be about me. Elections are not supposed to be about 
these proxy fights between the moneyed middlemen.
    Ms. Mitchell. Mr. Chairman, if I might, I would like to ask 
the--you have made reference to the Arizona law and the law 
enacted by the voters of Arizona voluntarily. In 2001, I did a 
study called ``Who Is Buying Campaign Finance Reform? '' to 
trace the sources of funding of the campaign finance reform 
movement, and the amount of money that was spent promoting 
campaign finance reform vastly outweighs the other side. And 
one of the chapters of that study included a study and an 
analysis of the funding of the Arizona Clean Elections Act, 
which was actually funded by George Soros. And what I would 
like to ask is leave to add that to the official record of this 
hearing, that study.
    And I am fascinated, Mr. Chairman, that the hue and cry has 
come after the 2010 election. If one goes to the Center for 
Responsive Politics, a very strong supporter of campaign 
finance reform and probably supportive of this proposal, and 
just looks at the data for the last decade, one will find that 
in every cycle until 2010 the outside spending by the left, by 
liberal groups--and I beg to differ with Senator Whitehouse, 
but the unions have far outspent conservatives and corporations 
in terms of independent spending for candidates and the 
political parties. And the left far outspent the conservatives 
in 2000, 2002, 2004, 2006, 2008. And only in 2010, when 
conservative groups actually competed with the liberal groups, 
is there this hue and cry. There was no outcry about the 
secrecy of the Democracy Alliance created by George Soros after 
the 2004 cycle, which does not report any of its contributions 
and funds a number of groups. The SEIU has spent over $400 
million that we know of since 2004.
    And, finally, Mr. Chairman, there are 26 States that allow 
corporate contributions to candidates: Missouri, Virginia, 
Oregon, to name a few. So I do think that the idea that somehow 
corporations can make independent expenditures but they cannot 
give contributions, I do think that is worth looking at, 
because half the States allow it.
    Chairman Durbin. Ms. Mitchell, as your testimony noted, I 
introduced this bill several years ago. This did not come in 
after the 2010 election. I have been in favor of public 
financing, and I still am. And I understand the value of 
incumbency. Most incumbents do not support reform--we do not 
have a single Republican Senator who cosponsors this 
legislation--because most incumbents believe we have an 
advantage when it comes to fundraising. And we do. We have got 
a stable of friends and contributors who can come to our side. 
But maybe I am off in some idealistic land here, but I would 
step away from that advantage and be willing to take on an 
opponent with a lot less money, flat out debate them as often 
as necessary, and let the voters decide. And I think at the end 
of the day we would have a healthier democracy.
    I do not believe that running these numbers up in the 
millions and millions, billions of dollars in campaign spending 
really informs voters that much. I am afraid voters are misled.
    And let me say in response to Senator Simpson, any rules 
that I would be for--and I think Senator Whitehouse would 
agree--apply to both across the board, right and left. So if it 
is corporations, it is unions, too. Same standard, same rules, 
no exceptions. And I think that is the way it should be.
    We also got another question of, you know, whether or not 
there would be a disclosure. One of the proposals we have on 
Citizens United is legislation that requires some disclosure at 
the end of a corporate-sponsored campaign ad as to who paid for 
it. Perhaps the CEO of the corporation will proudly stand up 
and say, ``This oil company paid for it,'' or ``This bank paid 
for it.'' So be it. I think the voters are entitled to know 
that. You know, we are not stopping the expenditure. We are 
just saying disclose, which, as I understand here, everybody is 
for. We could not get support for that reform when we offered 
it.
    So I thank you for coming. I enjoyed the conversation.
    Mr. Simpson. Mr. Chairman, may I just add one note?
    Chairman Durbin. Of course.
    Mr. Simpson. You remember my friend Al Cranston. I think 
Senator Whitehouse would like to hear this. Al Cranston was a 
great friend of mine, and we chaired the Veterans Affair 
Committee alternately, and I was minority or I was Chairman. He 
left here in a cloud because of what happened, and he had no 
knowledge of it, and it left him tarnished, and it was a shame.
    His scheduler forgot to check every day what the 
fundraising arm of Cranston for Senate was doing, and the media 
went into the stack and said, ``We see that so-and-so gave 10 
grand in May, and then they came to see you in June.'' And he 
was eaten alive by that thing he knew nothing of. He said, ``I 
did not know that the scheduler did not know what the 
fundraising campaign was doing.'' And it appeared that if you 
gave the money, you saw Al within a week, and it brought him 
down. A very sad situation.
    It was a perception. Everything we do here is perception. 
There is no reality to what any of us do here. It is all 
perception.
    Chairman Durbin. And I would say, Senator Simpson, I did 
not know Senator Cranston as well as you did, but this tangled 
web that we live in elected officials raising money, across the 
street, literally across the street from this building, is the 
Democratic Senate Campaign Committee. Why is it across the 
street from this building? Because we cross that street 
regularly to go over there and raise money for our campaigns 
and for our causes.
    I think America would be a better Nation if both political 
parties declared a truce on this fundraising run-up, this 
escalation, and said shorter campaigns, cheaper campaigns, more 
direct contact between candidates, let the voters decide, and 
transparency about where the money is coming from. I think we 
would be stronger, and that is what my bill is trying to 
achieve.
    Thank you for being here. The Subcommittee received written 
statements from more than 25 national organizations that 
support Fair Elections Now, including AFSCME, Alliance for 
Justice, Americans for Campaign Reform, American Sustainable 
Business Council, the Brennan Center for Justice, Common Cause, 
Demos, Democracy Matters, NAACP, Public Campaign, Public 
Citizen, SEIU, U.S. Public Interest Research Group, and U.S. 
Action.
    Additionally, there are more than 120 former elected 
officials, civic leaders, and business leaders from major 
corporations that have endorsed this bill. They include 
Democrats like Senators Bill Bradley, Bob Kerrey, of course, 
permanent Republican line Alan Simpson, Warren Rudman, EPA 
Director Christie Todd Whitman; and business leaders like Bill 
Gates, Paul Volcker, Frank Carlucci, Lee Iacocca.
    [The statements appear as a submission for the record.]
    Chairman Durbin. We will keep the record open for a week if 
there are additional materials from interested individuals, and 
questions may be directed to witnesses, which I ask them to 
respond to as quickly as possible.
    Thank you. The hearing stands adjourned.
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        Prepared Statement of Subcommittee Chairman Dick Durbin

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

         Prepared Statement of Committee Chairman Patrick Leahy
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

               Prepared Statement of Hon. Alan K. Simpson
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


               Prepared Statement of Cleta Mitchell, Esq.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                   Prepared Statement of Monica Youn
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


     Questions submitted by Senator Graham for Cleta Mitchell, Esq.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

  Responses of Cleta Mitchell to questions submitted by Senator Graham

    At the time of printing, after several attempts to obtain 
responses to the written questions, the Committee had not 
received any communication from Cleta Mitchell.

                Miscellaneous Submissions for the Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                [all]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
